Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       INAPPROPRIATE 

   MEDICARE PAYMENTS FOR 

    PRESSURE REDUCING 

     SUPPORT SURFACES





                    Daniel R. Levinson

                     Inspector General 


                      August 2009

                     OEI-02-07-00420

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
E X E C U T I V E                        S U           M M A R Y
Δ    E X E C U T I V E                                     S U M M A R Y


                   OBJECTIVES
                   1. To assess the appropriateness of Medicare payments for pressure
                   reducing support surfaces.

                   2. To determine what program safeguards are in place to ensure proper
                   payments for pressure reducing support surfaces.


                   BACKGROUND
                   Pressure reducing support surfaces (support surfaces) are used for the
                   care or prevention of pressure ulcers. A pressure ulcer, also known as a
                   bedsore or decubitus ulcer, is an area of skin that breaks down when a
                   person stays in one position for too long without shifting his or her
                   weight. Pressure ulcers commonly occur among the elderly and among
                   individuals with spinal cord injuries.

                   The Centers for Medicare & Medicaid Services (CMS) categorizes
                   support surfaces into three groups based on the complexity of their
                   features. This report focuses on group 2 support surfaces, which is the
                   largest group. In 2007, Medicare payments for group 2 support surfaces
                   totaled $109 million, which accounted for 80 percent of all support
                   surface payments. Medicare covers support surfaces under its durable
                   medical equipment (DME) benefit.

                   To assess the appropriateness of Medicare payments for group 2 support
                   surfaces, we used a contractor to conduct a medical record review of a
                   stratified random sample of 363 claims. We also conducted a separate
                   review of the documentation that suppliers are required to keep on file
                   for each claim. Lastly, we conducted structured telephone interviews
                   with CMS contractor staff who process, review, and analyze DME
                   claims.


                   FINDINGS
                   Eighty-six percent of the claims for group 2 support surfaces did
                   not meet Medicare coverage criteria. Based on a review of medical
                   record documentation and supplier documentation, we found that
                   86 percent of group 2 support surface claims for the first half of 2007 did
                   not meet Medicare coverage criteria. This amounted to an estimated
                   $33 million in inappropriate payments during that time. We considered
                   a claim as not meeting Medicare coverage criteria if it either (1) did not



 OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   i
E X E C U T I V E                        S U           M M A R Y


                   meet Medicare’s clinical coverage requirements, or (2) did not meet
                   Medicare’s supplier documentation requirements.

                   Based on an independent medical review, we found that 80 percent of
                   group 2 support surface claims did not meet Medicare’s clinical coverage
                   requirements. In addition, 33 percent of claims did not meet supplier
                   documentation requirements. Over three-quarters of the claims that
                   did not meet supplier documentation requirements also did not meet
                   Medicare’s clinical coverage requirements.

                   Specifically, 38 percent of the claims were undocumented, 22 percent
                   were medically unnecessary, 17 percent had insufficient documentation,
                   and 3 percent had other billing errors. For the claims that did not meet
                   supplier documentation requirements, the supplier delivered the
                   support surface before obtaining the physician order, the supplier did
                   not have a physician order, the supplier was missing the proof of
                   delivery, or the physician order was not dated.
                   CMS contractors had limited program safeguards in place to
                   prevent improper payments for group 2 support surfaces. CMS
                   contractors reported that they relied primarily on two claims processing
                   edits to prevent improper payments for support surfaces. One of the
                   edits checked for the KX modifier, which a supplier uses to indicate that
                   a claim meets Medicare coverage criteria and that adequate
                   documentation exists. In our sample, all but one of the claims included
                   the KX modifier, even though we found that 80 percent of the claims did
                   not meet clinical coverage criteria. In addition, none of the CMS
                   contractors conducted any widespread medical reviews of support
                   surface claims. Moreover, only half of the CMS contractors responsible
                   for supplier education conducted any educational activities in recent
                   years that focused on group 2 support surfaces.


                   RECOMMENDATIONS
                   Based on the findings in this report, we recommend that CMS:

                   Ensure that claims for group 2 support surfaces meet Medicare coverage
                   criteria and are paid appropriately. To address this recommendation, CMS
                   should:
                       •	 Conduct additional prepayment and postpayment medical 

                            reviews of group 2 support surface claims; 


                           •	      Educate suppliers and health care providers, such as home
                                   health agencies, about Medicare coverage criteria for support

 OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   ii
E X E C U T I V E                        S U           M M A R Y


                                   surfaces. Education should inform suppliers and health care
                                   providers about the information that needs to be documented in
                                   the medical record for initial and continued coverage. Education
                                   should also focus on differences in the coverage criteria between
                                   group 1 and group 2 support surfaces;

                           •	      Review the use of the KX modifier as a program safeguard; and

                           •	      Conduct additional statistical analyses to monitor payments for
                                   group 2 support surfaces.
                   Take appropriate action regarding the claims in our sample that were
                   inappropriate. CMS should follow up on the claims that were
                   undocumented, medically unnecessary, insufficiently documented, or had
                   billing errors in which the money was not already refunded to Medicare.
                   CMS should also follow up on claims in which the supplier delivered the
                   support surface before obtaining the physician order, the supplier did not
                   have a physician order, the supplier was missing the proof of delivery, or
                   the physician order was not dated. Finally, CMS should follow up on the
                   suppliers that could not be located. To help CMS address this
                   recommendation, we will forward information about these claims in a
                   separate memorandum.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all five of our recommendations. CMS stated that
                   it will share our findings on inappropriate claims with its contractors
                   for potential additional prepayment edits and prepayment medical
                   review. It also noted that it will revise review instructions to clarify
                   that the contractors may initiate widespread service-specific
                   prepayment review without first conducting “probe” reviews for problem
                   areas identified by various parties, including the Office of Inspector
                   General. CMS also stated that it will issue a Medicare Learning
                   Network Matters article to remind suppliers and health care providers
                   about Medicare coverage criteria for support surfaces. Further, it
                   mentioned that it is currently reviewing the utility and use of the KX
                   modifier, including its application in DME. It also stated that it plans
                   to share our recommendation about conducting additional statistical
                   analyses with the appropriate contractors for their consideration in
                   ongoing monitoring of these claims. Lastly, CMS indicated that once it
                   reviews the inappropriate claims and better understands the nature of
                   these claims, it will forward them to the appropriate contractors.

 OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   iii
E X E C U T I V E                        S U           M M A R Y


                   We support CMS’s efforts to address these issues and encourage it to
                   continue to make progress in these areas.




 OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   iv
Δ      T A B L E                     O F                  C O N T E N T S



                  EXECUTIVE SUMMARY ....................................
 i




                  INTRODUCTION ........................................... 1




                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                                Eighty-six percent of the claims for group 2 support surfaces 

                                did not meet Medicare coverage criteria . . . . . . . . . . . . . . . . . . . . 11 


                                CMS contractors had limited program safeguards in place 

                                to prevent improper payments for group 2 surfaces . . . . . . . . . . . 15 




                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                                Agency Comments and Office of Inspector General Response . . . 18 




                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                                A: Local Coverage Determination for Pressure Reducing 

                                Support Surfaces—Group 2. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 


                                B: Additional Details of the Medical Review. . . . . . . . . . . . . . . . . 25 


                                C: Confidence Intervals for Selected Estimates . . . . . . . . . . . . . . 26 


                                D: Weighted Chi-Square Test for Initial and Continued Claims . 29 


                                E: Centers for Medicare & Medicaid Services Comments . . . . . . 30 




                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34 





OEI-02-07-00420      I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   v
Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To assess the appropriateness of Medicare payments for pressure
                  reducing support surfaces.

                  2. To determine what program safeguards are in place to ensure proper
                  payments for pressure reducing support surfaces.


                  BACKGROUND
                  Pressure reducing support surfaces (support surfaces) are used for the
                  care or prevention of pressure ulcers. A pressure ulcer, also known as a
                  bedsore or decubitus ulcer, is an area of skin that breaks down when a
                  person stays in one position for too long without shifting his or her
                  weight. Pressure ulcers commonly occur among the elderly and among
                  individuals with spinal cord injuries.

                  The Centers for Medicare & Medicaid Services (CMS) categorizes
                  support surfaces into three groups based on the complexity of their
                  features. This report focuses on group 2 support surfaces, which is the
                  largest group. In 2007, Medicare payments for group 2 support surfaces
                  totaled $109 million, which accounted for 80 percent of all support
                  surface payments.

                  Medicare covers support surfaces under its durable medical equipment
                  (DME) benefit. CMS reported that Medicare expenditures for DME
                  were $9.2 billion in fiscal year (FY) 2006. 1 A sizable percentage of these
                  expenditures were inappropriate overpayments. 2




                      1 Figure cited is for DME claims for the 12-month period ending September 30, 2006.
                  Available online at https://www.cms.hhs.gov/apps/er_report/preview_er_report_print
                  .asp?from=public&which =long&reportID=6. Accessed on December 5, 2008.
                      2 CMS’s Comprehensive Error Rate Testing (CERT) contractor calculated Medicare’s
                  DME payment error rate to be 7.5 percent in FY 2006. A subsequent Office of Inspector
                  General (OIG) audit to determine the adequacy of the CERT contractor’s medical review of
                  DME claims calculated a higher DME error rate in the CERT sample—either 17.3 percent
                  or 28.9 percent, depending on the extent of documentation reviewed. OIG, “Medical Review
                  of Claims for the Fiscal Year 2006 Comprehensive Error Rate Testing Program,”
                  A-01-07-00508, August 2008.



OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   1
I N T R O D        U C T             I O N


                    Support Surface Categories
                    The three support surface groups have varying characteristics and
                    include the following:

                            •	      Group 1 support surfaces are generally designed to be placed on
                                    top of standard hospital or home mattresses and include
                                    pressure pads and mattress overlays (foam, air, water, or gel).

                            •	      Group 2 support surfaces, which can be special mattresses used
                                    alone or placed directly over a bedframe, include powered air
                                    flotation beds, powered pressure reducing air mattresses, and
                                    nonpowered advanced pressure reducing mattresses.
                            •	      Group 3 support surfaces are complete bed systems, known as
                                    air-fluidized beds, which simulate the movement of fluid by
                                    circulating filtered air through silicone-coated ceramic beads.

                    If a physician determines that a support surface is medically necessary,
                    the physician writes a prescription indicating the type of support
                    surface the beneficiary needs. Once a support surface is selected,
                    prescribed, and ordered, a DME supplier delivers the item to the
                    beneficiary and bills Medicare monthly for the rental.

                    The supplier uses a Healthcare Common Procedure Coding System
                    (HCPCS) code on a Medicare claim to designate the type of equipment it
                    provided to the beneficiary. 3 To bill for group 2 support surfaces,
                    suppliers may use any of the five HCPCS codes listed in Table 1. 4 The
                    most commonly billed HCPCS code was for powered pressure reducing
                    air mattresses (E0277), which represented 93 percent of all group 2
                    support surface claims in the first half of 2007.




                      3 HCPCS is a standardized coding system developed and updated by CMS to ensure
                    uniform identification of and billing for medical products, supplies, and services furnished
                    by physicians and other health care professionals.
                        4 Group 2 support surfaces may also be billed under a sixth HCPCS code. We excluded
                    this code (E1399) from our review because suppliers may also use this code to bill for
                    group 2 support surface accessories and other DME items that are not related to support
                    surfaces.



 OEI-02-07-00420    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   2
I N T R O D        U C T             I O N 





                          Table 1: Group 2 Support Surface HCPCS Codes
                                                                                                                        2007 Average Fee
                          HCPCS                                                           Su pport Surface Name         Schedule Amount

                          E0193                             Powered air flotation bed (low air loss therapy)                       $886

                          E0277                                       Powered pressure reducing air mattress                       $693

                          E0371                   Nonpowered advanced pressure reducing overlay for
                                                                                                                                   $436
                                                              mattress, standard mattress length and width

                          E0372                                                    Powered air overlay for mattress,
                                                                                                                                   $529
                                                                              standard mattress length and width

                          E0373                      Nonpowered advanced pressure reducing mattress                                $603

                       Source: “HCPCS Code Fee Schedule,” 2007.


                    Medicare Coverage for Support Surfaces
                    Medicare covers group 2 support surfaces under Part B as capped rental
                    DME. 5 Accordingly, Medicare pays suppliers for a specified number of
                    months of continuous use if the equipment remains medically
                    necessary. 6 After the 13th month, the supplier must transfer the title of
                    the group 2 support surface to the beneficiary. 7
                    Provisions of the Social Security Act (the Act) govern Medicare payment
                    for all items or services, including support surfaces. Section
                    1862(a)(1)(A) of the Act states that Medicare will cover only services
                    considered reasonable and necessary for the diagnosis or treatment of
                    illness or injury or to improve the functioning of a malformed body
                    part. 8 Further, Section 1833(e) of the Act requires that providers
                    furnish “such information as may be necessary in order to determine the
                    amounts due” to receive Medicare payment. 9
                    In addition, four DME Medicare Administrative Contractors (MAC),
                    under contract with CMS, develop policies known as Local Coverage
                    Determinations (LCD). The LCDs specify the clinical circumstances
                    under which an item is considered to be reasonable and necessary. All

                        5 42 CFR § 414.229. 

                        6 Social Security Act § 1834(a)(7)(A)(i)(I), 42 U.S.C. § 1395m(a)(7)(A)(i)(I); 42 CFR

                    § 414.229(d).
                        7 Social Security Act § 1834(a)(7)(A)(ii), 42 U.S.C. § 1395m(a)(7)(A)(ii); 42 CFR
                    § 414.229(2)(ii).
                        8 Social Security Act § 1862(a)(1)(A), 42 U.S.C. § 1395y(a)(1)(A).
                        9 Social Security Act § 1833(e), 42 U.S.C. § 1395l(e).




 OEI-02-07-00420    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES                 3
I N T R O D        U C T             I O N


                    four DME MACs issued four identical LCDs for group 2 support
                    surfaces, making the policy uniform nationally. 10 The LCD includes
                    Medicare coverage criteria for initial use and continued use of group 2
                    support surfaces. It does not provide specific criteria for the five
                    HCPCS codes. Appendix A includes relevant excerpts from the LCD.
                    Initial Medicare coverage criteria. The LCD states that Medicare covers a
                    group 2 support surface for initial use if the patient meets any of the
                    three situations described in Table 2. These three situations include a
                    combination of six different clinical criteria. Several of these criteria
                    relate to the stage and progress of the patient’s pressure ulcers.
                    Pressure ulcers can range from stage I to stage IV, depending on their
                    size and severity. See page 23 (Appendix A) for a complete explanation
                    of pressure ulcer staging.

                    The LCD also stipulates that there must be a care plan in the medical
                    record, established by the physician or home care nurse, that includes
                    the following: patient and caregiver education on the prevention and
                    management of pressure ulcers; regular assessment by a nurse,
                    physician, or other licensed practitioner; appropriate turning and
                    positioning; appropriate wound care for the ulcer type; appropriate
                    management of moisture and incontinence; and nutritional assessment
                    and intervention consistent with the overall plan of care.




                        10 The four LCDs are entitled “LCD for Pressure Reducing Support Surfaces—Group 2.”
                    The four relevant LCD policy numbers are L11564, L5068, L11579, and L27009. We used
                    the version of the LCDs that was effective during our sample timeframe. Since all four
                    LCDs are the same, we refer to them as “the LCD” for purposes of this report.



 OEI-02-07-00420    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   4
I N T R O D        U C T              I O N 





                    Table 2: Criteria Used To Determine Initial Coverage for Group 2 Support
                    Surfaces


                    Situation 1: Patient must meet criteria 1, 2, and 3.
                        (1) The patient has multiple stage II pressure ulcers located on the trunk or
                        pelvis.
                        (2) The patient is on a comprehensive ulcer treatment program for at least
                        the past month that included the use of a group 1 support surface.
                        (3) The ulcers have worsened or remained the same over the past month.

                    Situation 2: Patient must meet criterion 4.
                        (4) The patient has large or multiple stage III or IV pressure ulcers on the
                        trunk or pelvis.

                    Situation 3: Patient must meet criteria 5 and 6.
                        (5) The patient had a recent myocutaneous flap or skin graft for a pressure
                        ulcer on the trunk or pelvis (surgery within the past 60 days).
                        (6) The patient has been on a group 2 or 3 support surface immediately
                        before a recent discharge from a hospital or nursing facility (discharge
                        within the past 30 days). Coverage for this situation is generally limited to
                        60 days from the date of surgery.

                   Source: “LCD for Pressure Reducing Support Surfaces—Group 2.”

                     Continued Medicare coverage criteria. The LCD states that Medicare
                     covers a group 2 support surface for continued use until the ulcer is
                     healed. If healing does not continue, there must be documentation in
                     the medical record to show that: (1) other aspects of the care plan are
                     being modified to promote healing, or (2) the use of the group 2 support
                     surface is medically necessary for wound management. The LCD
                     further requires that the support surface provided to the patient must
                     not “bottom out,” a situation in which the mattress no longer supports
                     the body.
                     Medical record documentation requirements. Both the “Medicare Program
                     Integrity Manual” (the Manual) and the LCD require that the patient’s
                     medical records contain sufficient documentation of medical necessity. 11
                     The supplier does not need to have documentation in the patient’s


                         11 CMS, “Medicare Program Integrity Manual” (PIM), ch.5, § 5.7 (as of Rev. 167; effective
                     10-01-06). “LCD for Pressure Reducing Support Surfaces—Group 2.” PIM provisions cited
                     were in effect during the period of this study.



 OEI-02-07-00420     I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   5
I N T R O D        U C T             I O N


                    medical record sent to it routinely; however, the Medicare contractor
                    may request this information from the supplier in selected cases. 12
                    According to the Manual, “The supplier should also obtain as much
                    documentation from the patient’s medical record as they determine they
                    need to assure themselves that coverage criterion for an item has been
                    met.” 13 If the contractor does not receive the information when
                    requested, or if the information in the patient’s medical record does not
                    adequately support the medical necessity of the item, then the supplier
                    may be liable for the dollar amount involved. 14
                    Supplier documentation requirements. The Manual stipulates that for all
                    DME, the supplier must keep on file a number of documents before
                    submitting a claim. These documents include a written physician’s
                    order, information from the physician concerning the patient’s
                    diagnosis, and proof of delivery. 15 The Manual also states that the
                    supplier may not dispense any pressure reducing pads, overlays,
                    mattresses, or beds until it has obtained a written order that is signed
                    and dated by the treating physician. 16 In addition, the LCD states that
                    the supplier must obtain a signed and dated statement from the
                    treating physician describing which criteria in the LCD the patient
                    meets. 17
                    The LCD further notes that the supplier is responsible for using the
                    KX modifier appropriately. The KX modifier indicates that the clinical
                    conditions meet the criteria for coverage of a group 2 support surface
                    and that adequate documentation exists in the medical record reflecting
                    these conditions. 18
                    Claims Processing and Program Safeguard Activities
                    In addition to developing LCDs, the four DME MACs are responsible for
                    processing and paying all DME claims. They implement claims
                    processing edits to prevent improper payments. They also conduct
                    outreach and education to suppliers and, subsequent to our data

                        12 PIM, § 5.7. 

                        13 Ibid., § 5.8. 

                        14 Ibid., § 5.7. 

                        15 Ibid., § 5.8. 

                        16 Ibid., § 5.2.3.1.

                      17 “LCD for Pressure Reducing Support Surfaces—Group 2,” Documentation 

                    Requirements.
                      18 If the criteria are not met, the supplier must include additional documentation with
                    the claim to justify coverage.



 OEI-02-07-00420    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   6
I N T R O D        U C T             I O N


                    collection, have become responsible for conducting medical reviews of
                    supplier claims.

                    CMS also contracts with three DME Program Safeguard Contractors
                    (PSC) that cover four jurisdictions. The PSCs are responsible for
                    conducting benefit integrity activities such as fraud investigations of
                    claims. 19 In addition, at the time of our review, the Statistical Analysis
                    Durable Medical Equipment Contractor (SADMERC) provided support
                    to the DME MACs by identifying billing trends and offering guidance on
                    the proper use of HCPCS codes. 20
                    Comprehensive Error Rate Testing Program
                    CMS established the CERT program to monitor the accuracy of
                    payments made in the Medicare Fee-for-Service (FFS) program. The
                    CERT contractor conducts medical reviews periodically on a sample of
                    paid claims to determine a paid claims error rate. The error rate is the
                    percentage of total dollars that Medicare FFS contractors erroneously
                    paid or denied. For FY 2007, the CERT error rate for support surfaces
                    was 18 percent. 21
                    Related Work
                    In 2009, OIG released a report about an independent contractor’s review
                    of DME claims from the FY 2008 CERT program. 22 To provide
                    assurance that the DME error rate was accurate, CMS contracted with
                    Palmetto GBA (Palmetto) to review the CERT contractor’s payment
                    determinations. OIG determined that Palmetto’s results did not provide
                    assurance that the error rate was accurate. OIG found that Palmetto’s
                    determinations differed from those of the CERT contractor because of
                    (1) incorrect medical necessity determinations by the CERT contractor
                    and (2) differences in review standards and methodology. These
                    differences were due to the CERT contractor’s use of clinical inference,
                    or clinical review judgment, to make medical necessity determinations


                        19 At the time of our review, the DME PSCs were responsible for the medical review
                    function that has been transitioned to the DME MACs as of March 1, 2008. CMS is
                    currently implementing a new contracting strategy regarding Medicare fraud, waste, and
                    abuse across all claim types called Zone Program Integrity Contractors.
                      20 The Pricing, Data Analysis and Coding Contractor now conducts the activities that
                    had been performed by the SADMERC prior to August 2008.
                        21 CMS, “Mid-Year Improper Medicare FFS Payments,” May 16, 2008.
                        22 OIG, “Independent Contractor’s Review of Durable Medical Equipment Claims From
                    the Fiscal Year 2008 Comprehensive Error Rate Testing Program,” A-01-09-00500,
                    May 2009.



 OEI-02-07-00420    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   7
I N T R O D        U C T             I O N


                    based on its review of supplier documents, beneficiary claim histories,
                    and limited medical records.

                    Based on these findings, OIG recommended that CMS require the
                    CERT contractor to develop a corrective action plan to reduce its
                    incorrect determinations and to perform a complex medical review by
                    obtaining and reviewing all medical records from all relevant providers.
                    In its comments to the draft report, CMS concurred with the
                    recommendations. It also issued a memorandum to its contractors
                    stating that it will clarify its manual to be explicit that clinical review
                    judgment may not override statutory, regulatory, ruling, national
                    coverage decision provisions, or local coverage decision provisions; and
                    that all documentation and policy requirements must be met before
                    clinical review judgments apply. 23


                    METHODOLOGY
                    We based this study on data from three sources: (1) a medical record
                    review of a random sample of group 2 support surface claims;
                    (2) a review of supplier documentation for these claims; and
                    (3) structured interviews with staff at the four DME MACs, the three
                    DME PSCs, and the SADMERC.
                    Sample Selection
                    For the medical record review, we selected a stratified random sample of
                    400 group 2 support surface claims from CMS’s National Claims History
                    file. The population from which we sampled consisted of all paid
                    group 2 claims that: (1) had a service date between January 1 and
                    June 30, 2007; and (2) were submitted to CMS by September 30, 2007.
                    The universe consisted of 76,780 claims that represented $44 million in
                    allowed payments. 24 We selected 200 claims for initial coverage for the
                    first stratum and 200 claims for continued coverage for the second
                    stratum. We determined whether the claim was for initial or continued
                    coverage based on a modifier on the claim that indicated whether it was
                    for the initial month of rental or for subsequent months.




                        23 CMS, “Clarification of Medical Review Policy,” March 30, 2009.
                        24 The amount of allowed payments for group 2 support surfaces in the first half of 2007
                    was less than the amount in the first half of 2006.



 OEI-02-07-00420    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   8
I N T R O D        U C T             I O N


                    Medical Record Review
                    We based our analysis on 363 of the 400 claims in our sample. We
                    excluded 13 claims from our analysis because the suppliers were
                    currently under investigation by OIG. In addition, we were unable to
                    locate the suppliers for 24 claims. We received documentation for all of
                    the remaining 363 claims, representing a 94-percent response rate.

                    We used a contractor to collect and review the medical records
                    associated with each sampled claim. The contractor requested from
                    each supplier all medical records related to the patient’s wound care
                    including records from physicians, hospitals, home health agencies,
                    skilled nursing facilities, and wound care clinics. The contractor
                    requested this information for the 60 days before the service date on the
                    claim.

                    Two registered nurses conducted the medical record review, each of
                    whom had at least 10 years of wound-care experience. The reviewers
                    used a standardized data collection instrument to review the medical
                    records and determine whether each sampled claim met Medicare
                    coverage criteria. The standardized instrument was developed in
                    collaboration with the reviewers and tested on a separate sample of
                    claims. The reviewers conducted their medical record review between
                    March and July 2008. Additional details of the medical review are
                    provided in Appendix B.

                    Based on the data from the medical review, we determined the
                    percentage of claims that did not meet Medicare coverage criteria. We
                    determined the percentage of claims that were in the following
                    categories: undocumented, medically unnecessary, insufficiently
                    documented, and other billing errors. We looked for statistically
                    significant differences in error rates between initial and continued
                    claims. Lastly, we calculated the projected error rates and dollars paid
                    in error for support surface claims in the first half of 2007.
                    Supplier Documentation
                    We conducted a separate review of the documentation that the supplier
                    is required to keep on file for each claim. To accomplish this, the
                    contractor requested from the supplier the physician order and proof of
                    delivery for each sampled claim.

                    We reviewed the documentation for each of the 363 claims to determine
                    the percentage of claims that did not meet Medicare supplier
                    documentation requirements. Specifically, we determined the
                    percentage of claims that did not have a signed and dated physician

 OEI-02-07-00420    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   9
I N T R O D        U C T             I O N


                    order, a proof of delivery, or a physician order before delivery. We looked
                    for statistically significant differences in error rates between initial and
                    continued claims. We did not include in our review an analysis of
                    whether the supplier had on file statements from the physician
                    regarding the patient’s diagnosis and which of the six criteria in the
                    LCD the patient met because these documents were reviewed as part of
                    the medical record review.
                    Structured Interviews and Supporting Documentation
                    We conducted structured telephone interviews with staff at the four
                    DME MACs, the three DME PSCs, and the SADMERC. We asked staff
                    at the DME MACs about any edits or other program safeguards in place
                    to prevent improper payments for group 2 support surface claims. We
                    asked staff at the DME PSCs about any medical reviews and fraud
                    investigations of these claims. We asked staff at the SADMERC about
                    any guidance to suppliers on the use of HCPCS codes for group 2
                    support surfaces. As part of these interviews, we requested and
                    reviewed any supporting documentation of program safeguards that
                    were specific to group 2 support surface claims.
                    Limitations
                    We did not independently verify the responses from the CMS
                    contractors that we interviewed.
                    Standards
                    Our review was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency (now
                    Council of the Inspectors General on Integrity and Efficiency).




 OEI-02-07-00420    I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   10
Δ   F I N D I N G S

         Eighty-six percent of the claims for            Based on a review of medical record
      group 2 support surfaces did not meet              documentation and supplier
                 Medicare coverage criteria              documentation, we found that
                                                         86 percent of group 2 support
                  surface claims for the first half of 2007 did not meet Medicare coverage
                  criteria. This amounted to an estimated $33 million in inappropriate
                  payments during that time. We considered a claim as not meeting
                  Medicare coverage criteria if it either (1) did not meet Medicare’s
                  clinical coverage requirements, or (2) did not meet Medicare’s supplier
                  documentation requirements.
                  Specifically, we found that 80 percent of group 2 support surface claims
                  did not meet Medicare’s clinical coverage requirements. In addition,
                  33 percent of claims did not meet supplier documentation requirements.
                  Over three-quarters of the claims that did not meet supplier
                  documentation requirements also did not meet Medicare’s clinical
                  coverage requirements.
                  Eighty percent of group 2 support surface claims did not meet clinical
                  coverage requirements
                  Our medical record review found that 80 percent of group 2 support
                  surface claims for the first half of 2007 did not meet Medicare’s clinical
                  coverage requirements. Table 3 describes the different types of errors,
                  the error rates, and the estimated dollars paid in error. Appendix C
                  provides the confidence intervals for the key estimates.

                   Table 3: Clinical Coverage Errors for Group 2 Support Surface
                   Claims, First Half of 2007

                   Type of Error                                                          Percentage of Claims        Allowed Amount

                   Undocumented                                                                             38%            $14,413,237

                   Medically unnecessary                                                                    22%             $8,882,785

                   Insufficient documentation                                                               17%             $7,022,886

                   Other billing errors                                                                       3%            $745,497*

                      Total errors                                                                          80%            $31,064,405

                  Source: OIG analysis of medical review results, 2008.
                  * Note: Relative precision equals 90 percent.




OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES                 11
F   I N D I N G 
S


                      Thirty-eight percent of all group 2 support surface claims in the first half of
                      2007 were undocumented. This represented $14.4 million in allowed
                      payments. For these claims, the suppliers either did not submit any
                      medical records to document the claims or they provided records that
                      did not correspond to the time period of our review. Claims that lack
                      documentation to show that the care was reasonable and necessary do
                      not meet Medicare coverage criteria.

                      Continued claims were more likely to be undocumented than initial
                      claims. Forty-two percent of continued claims were undocumented,
                      compared to 15 percent of initial claims. This difference was
                      statistically significant at the 95-percent confidence level. See
                      Appendix D for statistical correlations.

                      Twenty-two percent of all group 2 support surface claims in the first half of
                      2007 were not medically necessary. This represented nearly $8.9 million
                      in allowed payments. For about half of these claims, there was no
                      documentation of any pressure ulcers or there was documentation that
                      showed that the wounds had already healed before the service date on the
                      claim. In one case, a physician clearly prescribed the support surface for
                      back pain.

                      For one-quarter of these claims, the patient had a stage I or II pressure
                      ulcer, rather than multiple stage II pressure ulcers, as required. In
                      other instances, the pressure ulcers were not located on the trunk or
                      pelvis, as required (e.g., the wound was on the foot) or there was a small
                      stage III or IV pressure ulcer on the trunk or pelvis, when one large or
                      multiple stage III or IV pressure ulcers are required to meet the
                      coverage criteria.

                      Many of the claims that were not medically necessary met the
                      less-restrictive criteria for group 1 support surfaces. In these cases, the
                      supplier provided a group 2 support surface when the beneficiary only
                      qualified for a more basic and lower-cost group 1 support surface. These
                      claims may be instances in which the supplier provided an upgrade but
                      did not bill for it appropriately. 25 In total, these claims amounted to




                        25 For information on the correct billing procedures for an upgrade, see CMS, “Medicare
                      Claims Processing Manual,” ch.30, §§ 50.7.4–50.7.5 (as of Rev. 1; effective October 1, 2003).



    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   12
F   I N D I N G        S


                      15 percent of all group 2 support surface claims in the first half of
                      2007. 26
                      An additional 17 percent of all group 2 support surface claims in the first
                      half of 2007 were insufficiently documented. This represented
                      $7.0 million in allowed payments. For half of these claims, there was no
                      documentation of the characteristics of the wound such as the stage of
                      the pressure ulcer or the measurements of the wound. For another
                      one-fifth of the claims, there was no documentation of the healing
                      progress of the pressure ulcer. For several other claims in this category,
                      the reviewers noted that the supplier may not have submitted the
                      medical records from all appropriate providers to substantiate the
                      claim. Medicare may hold suppliers liable if the information in the
                      patient’s medical record, as submitted by the supplier, does not
                      adequately support the medical necessity of the support surface. 27
                      Initial claims were more likely to be insufficiently documented than
                      continued claims. Twenty-eight percent of initial claims were
                      insufficiently documented, compared to 16 percent of continued claims.
                      This difference was statistically significant at the 95-percent confidence
                      level.

                      Another 3 percent of the claims in the first half of 2007 were for other billing
                      errors. This represented $745,000 in allowed payments. For these
                      claims, the suppliers stated that they had used the wrong HCPCS code,
                      incorrectly billed for a patient who was deceased or for patients who
                      were in skilled nursing homes or hospitals, or had made other types of
                      errors. In all of these cases, the suppliers had either already refunded
                      the money to Medicare or said that they were planning to do so. In a
                      few cases, it was apparent that the suppliers had contacted Medicare to
                      refund the money only after we had requested the medical records for
                      that claim. In total, we received documentation of a refund for almost
                      half of the claims in this category.




                         26 We were unable to calculate the total dollars allowed for these claims. In these
                      instances, the medical reviewers were unable to determine which group 1 support surface
                      was appropriate and therefore we could not determine the corresponding payment amount.
                          27 PIM, § 5.7.




    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   13
F   I N D I N G        S


                      Thirty-three percent of group 2 support surface claims did not meet supplier
                      documentation requirements
                      Based on a review of supplier documentation, we found that 33 percent
                      of all group 2 support surface claims for the first half of 2007 did not
                      meet supplier documentation requirements. 28 Medicare requires the
                      supplier to keep on file a number of documents, including the signed
                      and dated physician order and proof of delivery for each claim. 29
                      Medicare also requires that the supplier have the physician order before
                      delivering the support surface. 30
                      As shown in Table 4, for 16 percent of the claims, the supplier delivered
                      the support surface to the beneficiary before obtaining the physician
                      order. For 13 percent of the claims, the supplier did not have a
                      physician order. For 8 percent of the claims, the supplier did not have
                      proof that the support surface was delivered to the beneficiary. For
                      1 percent of the claims, the physician order was not dated.

                      Continued claims were less likely to meet the supplier documentation
                      requirements than initial claims. Thirty-four percent of continued
                      claims did not meet these requirements, compared to 23 percent of
                      initial claims. This difference was statistically significant at the
                      95-percent confidence level.

                                Table 4: Supplier Documentation Errors for Group 2
                                Support Surface Claims, First Half of 2007
                                Type of Error                                                                   Percentage of Claims

                                Delivery before physician order                                                                 16%

                                Physician order missing                                                                         13%

                                Proof of delivery missing                                                                        8%

                                Physician order not dated                                                                        1%

                                   Total                                                                                       33%*

                             *Note: The percentages do not add up to 33 percent because some claims had
                              more than one type of error.
                             Source: OIG analysis of supplier documentation, 2008.




                          28 The supplier documentation analysis is based on 356 claims. 

                          29 PIM, § 5.8. 

                          30 Ibid. 





    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES           14
F   I N D I N G        S            



                                                                                                  The DME MACs and PSCs, as
           CMS contractors had limited program
                                                                                                  well as the SADMERC, had
         safeguards in place to prevent improper
                                                                                                  limited safeguards in place to
          payments for group 2 support surfaces                                                   prevent improper payments for
                      group 2 support surface claims.
                      Staff at the four DME MACs reported that they relied primarily on two
                      claims processing edits to prevent improper payments for support
                      surfaces. The DME MACs each had an edit in place that checked
                      whether the diagnosis code supported the medical necessity of claims. 31
                      Also, they each had an edit in place that checked for the KX modifier on
                      a claim. 32 Staff at the DME MACs explained that claims that did not
                      have the KX modifier were flagged for possible review. In our sample,
                      all but one of the claims included the KX modifier, even though we
                      found that 80 percent of the claims did not meet clinical coverage
                      criteria.

                      To varying degrees, staff at the DME MACs also noted that they had
                      other, more general edits in place. These edits included checks to
                      ensure that the beneficiary was covered by Medicare, that there were no
                      duplicate claim submissions, that the beneficiary did not have similar
                      DME, and that payments did not exceed the allowed capped rental
                      payment.

                      In addition, none of the three PSCs conducted any widespread medical
                      reviews of support surface claims. Staff at two of the PSCs, which
                      covered three regions, reported conducting limited medical reviews for
                      only a small number of suppliers. One of these PSCs reviewed claims
                      for seven suppliers in 2005. The other PSC reviewed claims for five
                      suppliers in 2006.

                      Moreover, only two of the four DME MACs conducted supplier education
                      activities in recent years that focused on group 2 support surfaces. In
                      March 2007, one DME MAC conducted an “open house” and reviewed
                      group 2 support surface documentation requirements, the criteria for
                      medical necessity, and the use of the KX modifier. Staff at another
                      DME MAC reported that, in April 2005, the previous contractor for the
                      region provided information to suppliers on group 2 support surfaces in


                          31 The LCD specifies certain diagnosis codes that support medical necessity.
                          32 As noted earlier, the supplier uses the KX modifier to indicate that a claim meets
                      Medicare coverage criteria and that adequate documentation exists in the medical record.



    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   15
F   I N D I N G 
S


                      its bulletin. This same DME MAC also maintains information on its
                      Web site about the coverage criteria for group 2 support surfaces.

                      Staff at the SADMERC further reported that they had not conducted any
                      recent analyses of group 2 support surface claims. They did note,
                      however, that an analysis they conducted of Florida suppliers whose
                      Medicare billing privileges were revoked showed that support surfaces
                      made up the top DME group billed by these suppliers.




    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   16
Δ   R E C O M M E N D A T I O N S



                  Based on a review of medical record documentation and supplier
                  documentation, we found that 86 percent of group 2 support surface
                  claims for the first half of 2007 did not meet Medicare coverage criteria.
                  This resulted in an estimated $33 million in inappropriate payments.
                  We considered a claim as not meeting Medicare coverage criteria if it
                  either (1) did not meet Medicare’s clinical coverage requirements, or
                  (2) did not meet Medicare’s supplier documentation requirements.

                  Specifically, we found that 80 percent of group 2 support surface claims
                  did not meet Medicare’s clinical coverage requirements. In addition,
                  33 percent of claims did not meet supplier documentation requirements.
                  Over three-quarters of the claims that did not meet supplier
                  documentation requirements also did not meet Medicare’s clinical
                  coverage requirements. Lastly, we found that CMS contractors had
                  limited program safeguards in place to prevent improper payments for
                  group 2 support surfaces.

                  Taken together, the results show that CMS’s current program safeguard
                  activities are not sufficient and that additional steps are needed to
                  reduce the high error rate for group 2 support surface claims.

                  Based on the findings in this report, we recommend that CMS:
                  Ensure that claims for group 2 support surfaces meet Medicare coverage
                  criteria and are paid appropriately
                  To address this recommendation, CMS should:

                          •	      Conduct additional prepayment and postpayment medical
                                  reviews of group 2 support surface claims;

                          •	      Educate suppliers and health care providers such as home
                                  health agencies about Medicare coverage criteria for support
                                  surfaces. Education should inform suppliers and health care
                                  providers about the information that needs to be documented in
                                  the medical record for initial and continued coverage and point
                                  out that claims that do not meet the coverage criteria should not
                                  be submitted. Education should also focus on differences in the
                                  coverage criteria between group 1 and group 2 support surfaces;

                          •	      Review the use of the KX modifier as a program safeguard; and

                          •	      Conduct additional statistical analyses to monitor payments for
                                  group 2 support surfaces.



OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   17
R   E C O        M M E N D A T                          I O N                  S


                      Take appropriate action regarding the claims in our sample that were
                      inappropriate
                      CMS should follow up on the claims that were undocumented, medically
                      unnecessary, insufficiently documented, and had billing errors in which
                      the money was not already refunded to Medicare. CMS should also
                      follow up on the claims in which the supplier delivered the support
                      surface before obtaining the physician order, the supplier did not have a
                      physician order, the supplier was missing the proof of delivery, or the
                      physician order was not dated. Finally, CMS should follow up on the
                      suppliers that could not be located. To help CMS address this
                      recommendation, we will forward information about these claims in a
                      separate memorandum.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with all five of our recommendations. In response to our
                      first recommendation, CMS stated that it will share our findings on
                      inappropriate claims with the DME MACs for potential additional
                      prepayment edits and prepayment medical review. CMS also noted that
                      it will forward the list of questionable claims to the Recovery Audit
                      Contractors (RAC) and DME MACs. The RACs review Medicare claims
                      on a postpayment basis and are tasked with identifying inappropriate
                      payments. CMS further commented that it will revise the MAC review
                      instructions to clarify that all MACs may initiate widespread service-
                      specific prepayment review without first conducting “probe” reviews for
                      problem areas identified by various parties, including OIG.
                      In response to our second recommendation, CMS stated that it will
                      issue a Medicare Learning Network Matters article to remind suppliers
                      and health care providers, such as home health agencies, about
                      Medicare coverage criteria for support surfaces.

                      In response to our third recommendation, CMS stated that it is
                      currently reviewing the utility and use of the KX modifier, including its
                      application in DME. This review includes an analysis of claims
                      submitted with the modifier, discussions with contractors, and outreach
                      to other CMS components with policy responsibilities related to the KX
                      modifier.

                      In response to our fourth recommendation, CMS stated that it will
                      share our recommendation about conducting additional statistical
                      analyses with the appropriate contractors for their consideration in

    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   18
R   E C O        M M E N D A T                          I O N                  S


                      ongoing monitoring of these claims. CMS further noted that an internal
                      data analysis team recently completed an analysis on support surfaces
                      and that the team will continue to monitor data periodically to look for
                      suspicious trends.

                      In response to our fifth recommendation, CMS noted that once it
                      reviews the inappropriate claims and better understands the nature of
                      these claims, it will forward them to the appropriate contractors.

                      We support CMS’s efforts to address these issues and encourage it to
                      continue to make progress in these areas. The full text of CMS’s
                      comments is provided in Appendix E.




    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   19
Δ   A P P E N D I X ~ A



                  Local Coverage Determination for
                  Pressure Reducing Support Surfaces—Group 2
                  The text quoted below contains the coverage and payment rules and the
                  supplier documentation requirements that were effective between
                  March 1, 2006, and June 30, 2007, for group 2 support surfaces as they
                  appeared in the Local Coverage Determination (LCD) issued by all four
                  Durable Medical Equipment (DME) Medicare Administrative
                  Contractors (MAC). We have included only sections of the LCD that are
                  relevant to our study.
                  The full text of the LCDs from all DME MACs can be found at
                  http://www.cms.hhs.gov/mcd/search.asp. The four relevant LCD policy
                  numbers are L11564, L5068, L11579, and L27009.


                          Indications and Limitations of Coverage and/or Medical
                          Necessity
                          For any item to be covered by Medicare, it must 1) be eligible
                          for a defined Medicare benefit category, 2) be reasonable and
                          necessary for the diagnosis or treatment of illness or injury
                          or to improve the functioning of a malformed body member,
                          and 3) meet all other applicable Medicare statutory and
                          regulatory requirements. For the items addressed in this
                          medical policy, the criteria for “reasonable and necessary”
                          are defined by the following indications and limitations of
                          coverage and/or medical necessity.
                          A group 2 support surface is covered if the patient meets:
                                   a) Criterion 1 and 2 and 3, or
                                   b) Criterion 4, or
                                   c) Criterion 5 and 6.
                                  1) Multiple stage II pressure ulcers located on the trunk
                                  or pelvis [International Classification of Diseases (ICD),
                                  9th Revision] (ICD-9 707.02–707.05).
                                  2) Patient has been on a comprehensive ulcer treatment
                                  program for at least the past month which has included
                                  the use of an appropriate group 1 support surface.
                                  3) The ulcers have worsened or remained the same over
                                  the past month.
                                  4) Large or multiple stage III or IV pressure ulcer(s) on
                                  the trunk or pelvis (ICD-9 707.02–707.05).




OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   20
A   P   P E N D       I X            ~           A


                                      5) Recent myocutaneous flap or skin graft for a pressure
                                      ulcer on the trunk or pelvis (surgery within the past 60
                                      days) (ICD-9 707.02–707.05).
                                      6) The patient has been on a group 2 or 3 support surface
                                      immediately prior to a recent discharge from a hospital
                                      or nursing facility (discharge within the past 30 days).
                              The comprehensive ulcer treatment described in #2 above
                              should generally include:
                                      i) Education of the patient and caregiver on the
                                      prevention and/or management of pressure ulcers.
                                      ii) Regular assessment by a nurse, physician, or other
                                      licensed health care practitioner (usually at least weekly
                                      for a patient with a stage III or IV ulcer).
                                      iii) Appropriate turning and positioning.
                                      iv) Appropriate wound care (for a stage II, III, or IV
                                      ulcer).
                                      v) Appropriate management of moisture/incontinence.
                                      vi) Nutritional assessment and intervention consistent
                                      with the overall plan of care.
                              If the patient is on a group 2 surface, there should be a care
                              plan established by the physician or home care nurse which
                              includes the above elements. The support surface provided
                              for the patient should be one in which the patient does not
                              “bottom out” (see Appendices section).
                              When a group 2 surface is covered following a myocutaneous
                              flap or skin graft, coverage generally is limited to 60 days
                              from the date of surgery.
                              When the stated coverage criteria for a group 2 mattress or
                              bed are not met, a claim will be denied as not medically
                              necessary unless there is clear documentation which justifies
                              the medical necessity for the item in the individual case. A
                              group 2 support surface billed without a KX modifier (see
                              Documentation section) will usually be denied as not
                              medically necessary.
                              Continued use of a group 2 support surface is covered until
                              the ulcer is healed or, if healing does not continue, there is
                              documentation in the medical record to show that: (1) other
                              aspects of the care plan are being modified to promote
                              healing, or (2) the use of the group 2 support surface is
                              medically necessary for wound management.
                              Appropriate use of the KX modifier (see Documentation
                              section) is the responsibility of the supplier billing the

    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   21
A   P   P E N D       I X            ~           A


                              [Durable Medical Equipment Regional Carrier] DMERC. 33
                              The supplier should maintain adequate communication on
                              an ongoing basis with the clinician providing the wound care
                              in order to accurately determine that use of the KX modifier
                              still reflects the clinical conditions which meet the criteria
                              for coverage of a group 2 support surface, and that adequate
                              documentation exists in the medical record reflecting these
                              conditions. Such documentation should not be submitted
                              with a claim but should be available for review if requested
                              by the DMERC.


                              Coding Information

                             [Current Procedural Terminology] CPT / 

                             [Healthcare Common Procedure Coding System] HCPCS Codes 

                             The appearance of a code in this section does not necessarily

                             indicate coverage. 

                              E0193               Powered Air Flotation Bed (Low Air Loss Therapy) 

                              E0277               Powered Pressure Reducing Air Mattress 

                              E0371 Nonpowered Advanced Pressure Reducing Overlay 

                              for Mattress, Standard Mattress Length and Width 

                              E0372 Powered Air Overlay for Mattress, Standard 

                              Mattress Length and Width 

                              E0373               Nonpowered Advanced Pressure Reducing Mattress 

                              E1399               Durable Medical Equipment, Miscellaneous 



                             HCPCS Modifier
                              KX - Specific required documentation on file.


                             ICD-9 Codes that Support Medical Necessity
                                707.02–707.05
                                Decubitus Ulcer, Upper Back – Decubitus Ulcer, Buttock




                          33 DMERCs have subsequently been replaced by DME MACs.




    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   22
A   P   P E N D       I X            ~           A


                              Documentation Requirements
                              Section 1833(e) of the Social Security Act precludes payment
                              to any provider of services unless “there has been furnished
                              such information as may be necessary in order to determine
                              the amounts due such provider” (42 U.S.C. section 1395l(e)).
                              It is expected that the patient’s medical records will reflect
                              the need for the care provided. The patient’s medical records
                              include the physician’s office records, hospital records,
                              nursing home records, home health agency records, records
                              from other health care professionals and test reports. This
                              documentation must be available to the DMERC upon
                              request.
                              An order for each item billed must be signed and dated by
                              the treating physician, kept on file by the supplier, and
                              made available to the DMERC upon request.
                              The supplier must obtain information concerning which, if
                              any, of criteria 1–6 listed in the Coverage and Payment
                              Rules section of this policy the patient meets in a signed and
                              dated statement from the treating physician. A suggested
                              form for collecting this information is attached. Questions
                              pertaining to medical necessity on any form used to obtain
                              this information may not be completed by the supplier or
                              anyone in a financial relationship with the supplier. This
                              statement must be supported by information in the patient’s
                              medical record which would be available to the DMERC on
                              request. Do not send this form to the DMERC unless
                              specifically requested.
                              Suppliers must add a KX modifier to a code only if all of the
                              criteria in the “Indications and Limitations of Coverage
                              and/or Medical Necessity” section of this policy have been
                              met.
                              When code E1399 is billed, the claim must include a
                              narrative description of the item, the manufacturer, the
                              model name or number (if applicable), and information
                              justifying the medical necessity for the item.
                              Refer to the Supplier Manual for more information on
                              documentation requirements.




    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   23
A   P   P E N D       I X            ~           A



                              Staging of Pressure Ulcers
                              The staging of pressure ulcers used in this policy is as
                              follows:
                              Stage I - Observable pressure related alteration of intact
                              skin whose indicators as compared to the adjacent or
                              opposite area on the body may include changes in one or
                              more of the following: skin temperature (warmth or
                              coolness), tissue consistency (firm or boggy feel) and/or
                              sensation (pain, itching). The ulcer appears as a defined
                              area of persistent redness in lightly pigmented skin,
                              whereas in darker skin tones, the ulcer may appear with
                              persistent red, blue, or purple hues.
                              Stage II - Partial thickness skin loss involving epidermis,
                              dermis, or both. The ulcer is superficial and presents
                              clinically as an abrasion, blister, or shallow crater.
                              Stage III - Full thickness skin loss involving damage to, or
                              necrosis of, subcutaneous tissue that may extend down to,
                              but not through, underlying fascia. The ulcer presents
                              clinically as a deep crater with or without undermining of
                              adjacent tissue.
                              Stage IV - Full thickness skin loss with extensive
                              destruction, tissue necrosis, or damage to muscle, bone, or
                              supporting structures (e.g., tendon, joint capsule).
                              Undermining and sinus tracts also may be associated with
                              Stage IV pressure ulcers.
                              Bottoming out is the finding that an outstretched hand can
                              readily palpate the bony prominence (coccyx or lateral
                              trochanter) when it is placed palm up beneath the
                              undersurface of the mattress or overlay and in an area
                              under the bony prominence. This bottoming out criterion
                              should be tested with the patient in the supine position with
                              their head flat, in the supine position with their head
                              slightly elevated (no more than 30 degrees), and in the
                              sidelying position.




    OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   24
Δ   A P P E N D I X ~ B


                  Additional Details of the Medical Review

                  Data Collection Instrument
                  The data collection instrument that the reviewers used to review the
                  medical records was computer-based and included automated skip
                  patterns and quality control checks. The reviewers entered data
                  directly into the system. The instrument included questions based on
                  the criteria in the Local Coverage Determination. For example, it asked
                  about the characteristics of the wound for which the support surface
                  was prescribed and included specific questions depending on the wound
                  type and whether the claim was for initial or continued coverage.
                  Test Review
                  To test the data collection instrument, the reviewers conducted a
                  preliminary medical review of 15 claims that we randomly selected from
                  the universe of all claims in the first half of 2007. This sample was
                  separate from the sample of 400 claims that were used for the main
                  review, and all claims were available for selection in both samples.
                  None of the claims was in both samples. Each reviewer reviewed the
                  medical records for 10 claims; both reviewers reviewed five of the same
                  claims. We discussed the results with the reviewers to ensure that they
                  were making consistent determinations about whether the claims met
                  Medicare coverage criteria.




OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   25
Δ   A P P E N D I X ~ C



                    Confidence Intervals for Selected Estimates
                    Confidence intervals for percentages were made using the logic
                    transformation.



                                                                                                   Point                   95-Percent
                   Estimate Description                                                n        Estimate           Confidence Interval


                   Percentage of all group 2 support                                  363              85.8%                 80.9%–89.6%
                   surface claims that did not meet
                   Medicare coverage criteria

                  Source: Office of Inspector General (OIG) analysis of medical review results, 2008.




                                                                                                   Point                   95-Percent
                   Estimate Description                                                n        Estimate           Confidence Interval


                   Percentage of all group 2 support                                  363             80.3%                  74.8%–84.8%
                   surface claims that did not meet
                   clinical coverage requirements


                       Percentage of undocumented                                     363             38.2%                  32.1%–44.8%
                       claims


                       Percentage of medically                                        363             22.2%                  17.3%–28.1%
                       unnecessary claims


                       Percentage of insufficiently                                   363             17.2%                  13.0%–22.5%
                       documented claims


                       Percentage of claims that had                                  363              2.6%                   1.1%–5.8%
                       other types of billing errors

                  Source: OIG analysis of medical review results, 2008.




OEI-02-07-00420     I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES           26
A   P   P E N D       I X              ~           C


                        Confidence Intervals for Selected Estimates (continued)




                                                                                                     Point                    95-Percent
                       Estimate Description                                             n         Estimate            Confidence Interval


                       Percentage of claims that did                                    363             32.8%                    27.0%–39.2%
                       not meet Medicare supplier
                       documentation requirements


                           Percentage of claims that were                               363             16.3%                    12.0%–21.8%
                           delivered before the physician
                           order


                           Percentage of claims missing                                 363             13.0%                    9.1%–18.2%
                           the physician order


                           Percentage of claims missing                                 363               7.6%                   4.8%–11.9%
                           proof of delivery


                           Percentage of claims missing                                 363               1.0%                    0.2%–3.9%
                           the date on the physician order

                      Source: OIG analysis of supplier documentation, 2008.




    OEI-02-07-00420     I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES           27
A   P   P E N D        I X             ~           C




                        Confidence Intervals for Selected Estimates (continued)



                                                                                                       Point                   95-Percent
                       Estimate Description                                                n        Estimate           Confidence Interval


                       Amount allowed for all group 2                                     363      $33,486,732         $31,151,634–$35,821,830
                       support surface claims that did not
                       meet Medicare coverage criteria




                                                                                                       Point                   95-Percent
                       Estimate Description                                                n        Estimate           Confidence Interval


                       Amount allowed for all group 2
                       support surface claims that did not                                363      $31,064,405         $28,623,437–$33,505,373
                       meet clinical coverage
                       requirements


                           Amount allowed for                                             363      $14,413,237         $11,905,511–$16,920,963
                           undocumented claims


                           Amount allowed for medically                                   363       $8,882,785           $6,696,002–$11,069,568
                           unnecessary claims


                           Amount allowed for insufficiently                              363       $7,022,886            $5,097,751–$8,948,022
                           documented claims


                           Amount allowed for claims that                                 363         $745,497               $74,491–$1,416,503
                           had other types of billing errors

                      Source: OIG analysis of medical review results, 2008.




    OEI-02-07-00420     I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES             28
Δ   A P P E N D I X ~ D



                    Weighted Chi-Square Test for Initial and Continued Claims



                    Weighted Chi-Square Test for Initial and Continued Claims


                                                                             Claim Type             Undocumented             P-Value
                   Difference in
                   percentage of claims                                       Initial claim                   15.1%
                   that were                                                                                                 < 0.0001
                   undocumented, by                                 Continued claim                           41.6%
                   type of claim
                                                                                                      Insufficiently
                                                                             Claim Type                documented            P-Value
                   Difference in
                   percentage of claims                                       Initial claim                   27.6%
                   that were insufficiently                                                                                   0.0057
                   documented,                                      Continued claim                           15.7%
                   by type of claim
                                                                                               Did not meet supplier
                                                                                                    documentation
                                                                             Claim Type               requirements           P-Value

                   Difference in                                              Initial claim                   22.7%
                   percentage of claims                                                                                       0.0142
                   that did not meet                                Continued claim                           34.3%
                   supplier documentation
                   requirements,
                   by type of claim


                  Source: Office of Inspector General analysis of medical review results and supplier
                  documentation, 2008.




OEI-02-07-00420     I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES          29
Δ            A P P E N D I X ~ E

             Agency Comments




(J-.
#,¢I'V1Ctl




              DEPARTMENT OF HEALlH & HUMAN SE«VICPS                                                          Centers tor Medicare & Medicaid Services


                                                                                                             Administrator
                                                                                                             Washington, DC 20201




                DATE:          JUL 022009
                TO:           Daniel R, Levinson
                            , Inspector General
                           0,-iuJJ/~ ;;;)-y-; 3~ ,~
                FROM:          Charlene Frizzera
                               Acting Administrator

                SUBJECT:       Office ofInspector General (OIG) Draft Report: "Inappropriate Medicare
                               Payments for Pressure Reducing Support Surfaces" OEI-02-07-00420


                Thank you for the opportunity toreview and comment on the above-referenced OIG draft
                report.

                Medicare Part B covers pressure reducing support services as durable medical equipment
                (DME). Pressure reducing support surfaces are categorized into three groups based on
                the complexity of their features. In 2007, Medicare spent $109 million on group 2
                support surfaces, accounting for 80 percent of all support surface payments. The OIG
                examined a sample of claims from the first half of 2007 and found that 86 percent of
                group 2 support surface claims did not meet Medicare coverage criteria. Based on their
                review, a claim did not meet Medicare coverage criteria if it did not either I) meet
                clinical coverage requirements or 2) meet supplier documentation requirements.

                The OIG estimated the inappropriate group 2 support surface claims amounted to $33
                million in inappropriate payments. The OIG also expressed concern that the Centers for
                Medicare & Medicaid Services (CMS) contractors had limited program safeguards in
                place to prevent improper payments for group 2 support surfaces.

                The OIG found 38 percent of their sample of group 2 support surface claims to be
                undocumented and 17 percent of group 2 support surfaces to be insufficiently
                documented. In addition, 22 percent of group 2 support surface claims were found to be
                not medically necessary. The OIG found that, for many of the medically unnecessary
                claims, the beneficiary qualified for a more basic and lower-cost group 1 support surface
                rather than the group 2 support surface.

                The OIG made the following recommendations:




    OEI-02-07-00420        I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES                       30
A P P E N D          I X            ~           E            





           Page 2 - Daniel R. Levinson


           OIG Recommendation
           Ensure that claims for group 2 support surfaces meet Medicare coverage criteria and are
           paid appropriately. CMS should:

           Conduct additional prepayment and post-payment medical reviews of group 2 support
           surface claims.

           CMS Response
           The CMS concurs with the recommendation and will share the OIG findings on
           inappropriate group 2 support surface claims with the Durable Medical Equipment
           Medicare Administrative Contractors (DME MACs) for potential additional prepay edits
           and prepay medical review. CMS will inform DME MACs of this issue so that they may
           consider it when prioritizing their medical review strategies as part of the CMS effort to
           protect the Medicare Trust Funds.

           The CMS will also take appropriate action to forward the listing of questionable claims to
           the Recovery Audit Contractors (RACs) and DME MACs. The RACs review Medicare
           claims on a post payment basis and are tasked with identifying inappropriate payments.
           While CMS does not mandate areas for RAC review, we will share this information with
           them and encourage them to consider these findings as they decide what claims to
           review.

           The CMS will also revise the MAC review instructions to clarify that all MACs can
           initiate widespread service-specific prepay review without first conducting "probe"
           reviews for problem areas identified by CMS, Comprehensive Error Rate Testing
           (CERT), RACs, GAO and/or OIG. We expect to release this new instruction during
           fiscal year 2009.

           OIG Recommendation
           Educate suppliers and health care providers, such as home health agencies, about
           Medicare coverage criteria for support surfaces. Education should inform suppliers and
           health care providers about the information that needs to be documented in the medical
           record for initial and continued coverage. Education should also focus on differences in
           the coverage criteria between group I and group 2 support surfaces.

           CMS Response
           The CMS concurs and will issue an MLN Matters article to remind suppliers and health
           care providers, such as home health agencies, aboutMedicare coverage criteria for
           support surfaces. It will specifically a) address the information that needs to be
           documented, b) remind suppliers not to submit claims if coverage criteria are not met,
           and c) highlight the differences in coverage criteria for group I and group 2 support
           surfaces. CMS expects to release this article in the summer of 2009.

            OIG Recommendation
            Review the use of the KX modifier as a program safeguard.




  OEI-02-07-00420        I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   31
A P P E N D         I X            ~           E            





            Page 3 - Daniel R. Levinson


            CMS Response
            The CMS concurs with the recommendation and is currently reviewing the utility and use
            of the KX modifier including its application in DME. This review includes an analysis of
            claims submitted with the modifier, discussions with contractors, and outreach to other
            CMS components with policy responsibilities related to the KX modifier.

            OIG Recommendation
            Conduct additional statistical analyses to monitor payments for group 2 support surfaces.

            CMS Response
            The CMS concurs and will share this recommendation with appropriate contractors
            including the Price, Data Analysis and Coding contractor, for their consideration in
            ongoing monitoring of these claims. It should be noted that an internal data analysis team
            recently completed an analysis on support surface devices~ The team will continue to
            monitor data periodically to look for suspicious trends, and will conduct analyses on any
            future referrals regarding these types of devices.

            OIG Recommendation
            Take appropriate action regarding the claims in our sample that were inappropriate. CMS
            should follow up on the claims that were undocumented, medically unnecessary,
            insufficiently documented, and that had billing errors where the money was not already
            refunded to Medicare. CMS should also follow up on the claims where the supplier
            delivered the support surface before obtaining the physician order, the supplier did not
            have a physician order, the supplier was missing the proof of delivery, or the physician
            order was not dated. Finally, CMS should follow up on the suppliers that could not be
            located. To help CMS address this recommendation, we will forward information about
            these claims in a separate memorandum.

            CMS Response
            The CMS concurs that action should be taken regarding inappropriate claims. CMS
            cannot commit to specific actions at this time as we do not know how resource intensive
            the appropriate actions will be. Once CMS has reviewed these claims and better
            understands the nature of the claims, CMS will forward them to the appropriate
            contractors.

            The CMS requests the OIG to furnish the necessary data (Medicare contractor numbers,
            provider numbers, claims information including the paid date, HICnumbers, and any
            other relevant materials) so that CMS can initiate actions on each inappropriate claim. In
            addition, Medicare contractor specific data should be written to separate CD-ROMs or
            separate hardcopy worksheets in order to better facilitate the transfer of information to
            the appropriate contractors.

            Finally, CMS will review the information provided by the OIG and will ensure that the
            suppliers indentified by OIG continue to meet the supplier standards found in Federal
            regulations at 42 CFR 424.57(c).




  OEI-02-07-00420       I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   32
A P P E N D         I X            ~           E            





            Page 4 - Daniel R. Levinson


            The CMS thanks the OIG for its efforts on this report and for highlighting this potential
            vulnerability in the Medicare program. CMS is committed to continually reviewing and
            refining our processes to improve the Medicare program, and we will take the findings of
            this report under consideration as we continue to strengthen our oversight efforts to
            further reduce improper payments in the Medicare program. We look forward to
            continuing to work with the OIG to identify and prevent fraud, waste, and abuse in the
            Medicare program.                           .




  OEI-02-07-00420       I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   33
Δ         A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Jodi Nudelman, 

                  Regional Inspector General for Evaluation and Inspections in the 

                  New York regional office, and Meridith Seife, Deputy Regional Inspector

                  General. 


                  Judy Kellis served as the team leader for this study. Other principal 

                  Office of Evaluation and Inspections staff from the New York regional 

                  office who contributed to the report include Christine Moundas and 

                  David Rudich; central office staff who contributed include 

                  Robert Gibbons and Scott Manley. 





OEI-02-07-00420   I N A P P R O P R I AT E M E D I C A R E PAY M E N T S   FOR   P RESSURE R EDUCI NG S UPPORT S URFACES   34
